<html>
<title> - ASSESSING THE USE OF SANCTIONS IN ADDRESSING NATIONAL SECURITY AND FOREIGN POLICY CHALLENGES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   ASSESSING THE USE OF SANCTIONS IN
                    ADDRESSING NATIONAL SECURITY AND
                       FOREIGN POLICY CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                     INTERNATIONAL DEVELOPMENT AND
                            MONETARY POLICY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-25
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                           
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-927 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             PETER T. KING, New York
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
WM. LACY CLAY, Missouri              BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            SEAN P. DUFFY, Wisconsin
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANN WAGNER, Missouri
BILL FOSTER, Illinois                ANDY BARR, Kentucky
JOYCE BEATTY, Ohio                   SCOTT TIPTON, Colorado
DENNY HECK, Washington               ROGER WILLIAMS, Texas
JUAN VARGAS, California              FRENCH HILL, Arkansas
JOSH GOTTHEIMER, New Jersey          TOM EMMER, Minnesota
VICENTE GONZALEZ, Texas              LEE M. ZELDIN, New York
AL LAWSON, Florida                   BARRY LOUDERMILK, Georgia
MICHAEL SAN NICOLAS, Guam            ALEXANDER X. MOONEY, West Virginia
RASHIDA TLAIB, Michigan              WARREN DAVIDSON, Ohio
KATIE PORTER, California             TED BUDD, North Carolina
CINDY AXNE, Iowa                     DAVID KUSTOFF, Tennessee
SEAN CASTEN, Illinois                TREY HOLLINGSWORTH, Indiana
AYANNA PRESSLEY, Massachusetts       ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JOHN ROSE, Tennessee
ALEXANDRIA OCASIO-CORTEZ, New York   BRYAN STEIL, Wisconsin
JENNIFER WEXTON, Virginia            LANCE GOODEN, Texas
STEPHEN F. LYNCH, Massachusetts      DENVER RIGGLEMAN, Virginia
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
           Subcommittee on National Security, International 
                    Development and Monetary Policy

                  EMANUEL CLEAVER, Missouri, Chairman

ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio, Ranking 
JIM A. HIMES, Connecticut                Member
DENNY HECK, Washington               PETER T. KING, New York
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
JUAN VARGAS, California              ROGER WILLIAMS, Texas
JOSH GOTTHEIMER, New Jersey          FRENCH HILL, Arkansas
MICHAEL SAN NICOLAS, Guam            TOM EMMER, Minnesota
BEN McADAMS, Utah                    ANTHONY GONZALEZ, Ohio
JENNIFER WEXTON, Virginia            JOHN ROSE, Tennessee
STEPHEN F. LYNCH, Massachusetts      DENVER RIGGLEMAN, Virginia, Vice 
TULSI GABBARD, Hawaii                    Ranking Member
JESUS ``CHUY'' GARCIA, Illinois
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    May 15, 2019.................................................     1
Appendix:
    May 15, 2019.................................................    31

                               WITNESSES
                        Wednesday, May 15, 2019

Carpenter, Michael, Senior Director, Penn Biden Center for 
  Diplomacy and Global Engagement, University of Pennsylvania....     6
Mortlock, David, Nonresident Senior Fellow, Global Energy Center, 
  Atlantic Council...............................................     4
Rosenberg, Elizabeth, Director and Senior Fellow, Energy, 
  Economics, and Security Program, Center for a New American 
  Security.......................................................     8
Singh, Daleep, Senior Fellow, Center for New American Security...     9
Zweig, Matthew, Senior Fellow, Foundation for Defense of 
  Democracies....................................................    11

                                
                                APPENDIX

Prepared statements:
    Carpenter, Michael...........................................    32
    Mortlock, David..............................................    38
    Rosenberg, Elizabeth.........................................    47
    Singh, Daleep................................................    61
    Zweig, Matthew...............................................    68

 
                   ASSESSING THE USE OF SANCTIONS IN
                    ADDRESSING NATIONAL SECURITY AND
                       FOREIGN POLICY CHALLENGES

                              ----------                              


                        Wednesday, May 15, 2019

             U.S. House of Representatives,
                 Subcommittee on National Security,
                          International Development
                               and Monetary Policy,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2128, Rayburn House Office Building, Hon. Emanuel Cleaver 
[chairman of the subcommittee] presiding.
    Members present: Representatives Cleaver, Perlmutter, 
Himes, Sherman, Gottheimer, Wexton, Lynch, Garcia of Illinois; 
Stivers, Williams, Hill, Emmer, Gonzalez of Ohio, and 
Riggleman.
    Ex officio present: Representative Waters.
    Also present: Representative Barr.
    Chairman Cleaver. The Subccommittee on National Security, 
International Development, and Monetary Policy will come to 
order.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Also, without objection, members of the full Financial 
Services Committee who are not members of the subcommittee are 
authorized to participate in today's hearing.
    Today's hearing is entitled, ``Assessing the Use of 
Sanctions in Addressing National Security and Foreign Policy 
Challenges.''
    But I want to take some liberties at this point to 
acknowledge the life of Dr. Alice Rivlin, who has appeared 
before our committee many, many times over the years. She was a 
trailblazing economist, professor, and frequent guest here at 
the Financial Services Committee. Educated at Harvard, she 
served as the first female Director of the Office of Management 
and Budget, Vice Chair of the Federal Reserve Board, and the 
founding Director of the Congressional Budget Office. Her life 
and impact will continue to reverberate through Congress and 
this subcommittee. And as we mourn her passing, we all 
celebrate her life, legacy, and service. I would like to thank 
the committee for granting me this privilege in formally 
convening a hearing.
    I now recognize myself for a 3-minute opening statement.
    Today's hearing will focus on one of the more pressing 
matters facing Congress, the use of sanctions to preserve 
American national security and advance critical foreign policy 
aims. Recent headlines highlight an American movement toward 
lurching toward war in Iran, a potential military intervention 
in Venezuela, and increasing instability in Iraq and 
Afghanistan, and, maybe most importantly, Russia to this day 
still has not felt the full force of American diplomacy 
following their audacious and churlish intrusion into our most 
sacred institution, our democratic elections.
    I might add that, just this morning, we found out that 
Russia was successful in getting into a couple of voting 
machines in a particular county. But as Ronald Reagan once 
noted, the only way our children can inherit the freedom we 
have known is if we fight for it, protect it, defend it, and 
then hand it to them with the well thought lessons of how they, 
in their lifetime, must do the same. I would urge my colleagues 
and our witnesses to consider these words while we discuss this 
topic. The battle we fight today is not unlike the one that 
once faced Ronald Reagan and the generation before him. I would 
dare say the work to preserve freedom for the next generation, 
due to increased interconnectedness and global uncertainty, 
have become more difficult in our time than his.
    Today, we are going to talk about sanctions, one of the 
most powerful tools in the congressional tool kit, and how to 
effectively utilize them to preserve national security and to 
change the behaviors of nefarious actors across the globe.
    As the legislative body of the most powerful country in the 
world, we have a responsibility to ensure that sanctions are 
deployed effectively and efficiently to achieve a cohesive and 
well-thought-out policy aim. With respect to Russia, in my 
view, this does not appear to be the case. There does not 
appear to be a consistent strategy to curb their dangerous 
activities and lawless behavior.
    Before us today is a draft bill that seeks to respond to 
Russia's malign activities, prohibiting U.S. persons and 
financial institutions from dealing in the new sovereign debt 
of the Russian Federation. This bill would close the disturbing 
loophole that allowed Russian oligarch Deripaska's companies to 
be delisted while possibly still allowing he and his family to 
benefit monetarily. And so, with this, I would look forward to 
a constructive conversation as we explore these issues. I will 
now recognize the ranking member of the subcommittee, Mr. 
Stivers, for 5 minutes.
    Mr. Stivers. Thank you, Mr. Chairman.
    I want to recognize the chairman and congratulate him on 
his new chairmanship of the National Security, International 
Development, and Monetary Policy Subcommittee. Those three 
issues are not partisan issues. We look forward to working with 
the chairman on an agenda to keep our people safe, make sure 
that we help our international partners with international 
development, and that we also have a monetary policy that 
works.
    With regard to today's hearing, past Administrations have 
attempted, and failed, to bring Russia into the international 
rules-based order. In the past few years, Russia has invaded 
its neighbor Ukraine, murdered 98 innocent civilians aboard 
Malaysia Airlines Flight 17, and assassinated dissidents. They 
have backed the likes of Bashar al-Assad in Syria, Maduro in 
Venezuela, and attempted to interfere with the elections in the 
United States.
    The sanctions draft today, the discussion draft that is the 
subject of this hearing, says a lot about how far our 
understanding of the Russian government's motivation and 
behavior have come. I am glad we have hit the reset button, to 
finally acknowledge the Russian government is dangerous, that 
it is an enemy of human rights and democratic values. Having 
said that, I want to emphasize that the Russian government is 
an adversary and its people are not. They are victims of their 
corrupt leadership. This is true of many other sanctioned 
countries that will be mentioned today, and it is important we 
remain mindful of that. I want to thank all of our witnesses 
today. I look forward to your testimony and learning how we can 
more effectively use sanctions to achieve our foreign policy 
objectives.
    Thank you, and I yield back the balance of my time.
    Chairman Cleaver. I now recognize the gentleman from 
Colorado, Mr. Perlmutter, who will make a statement on behalf 
of the Chair of the full Financial Services Committee, 
Chairwoman Waters.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    And on behalf of Chairwoman Waters, thank you, Mr. 
Chairman.
    There are many principled, intellectual disagreements 
between Republicans and Democrats about public policy and the 
direction we should take this country. But there is one thing 
about which there is no dissent: Our democracy is the greatest 
experiment in self-governance the world has ever seen.
    Mr. Chairman, our democracy was attacked, and if we do 
nothing, it will be attacked again. Our intelligence agencies 
have assessed with high confidence that Russian President Putin 
ordered an influence campaign aimed at the 2016 U.S. 
Presidential election, and they expect Moscow to do so again in 
the 2020 Presidential elections.
    We must send a strong signal to the Kremlin and to the 
markets that the U.S. sanctions have not plateaued and that the 
threat of additional, significant, economic actions against 
Russia is real. We will not tolerate attacks on our democracy. 
The chairwoman looks forward to discussing this matter further 
today.
    And, with that, I yield back.
    Chairman Cleaver. The Chair now recognizes the gentleman 
from California, Mr. Sherman, for 1 minute.
    Mr. Sherman. Thank you.
    For a long time, I have been urging tougher sanctions on 
Russia for interfering in our elections and have proposed that 
we prohibit dealing in sovereign debt of the Russian state 
until they can go an election without interfering in our 
elections.
    But let's talk about what we mean by ``interfering.'' It is 
fine for RTTV to run editorials. It is fine for the Kremlin to 
issue a press release. And if Putin wants to make huge 
concessions to us on arms control in an effort to make Trump 
look good, fine. But when the Russians steal data, when they 
interfere with voting and tabulation, or when they engage in 
propaganda efforts under a false flag, that is when we have to 
respond.
    Second, at the most recent hearing of the Full Committee, I 
attacked cryptocurrencies. Since then, the crypto community has 
responded, as they would, and has pointed out that I was right. 
I said that cryptocurrencies would have the effect of 
diminishing American power, and so many of them in that world 
said, yes, that is the point. Now, you may disagree with 
American policy, and if someday a majority of Americans think 
we shouldn't sanction Hamas or Kim Jong-un, that is fine, but 
we don't want to disempower the American people by diminishing 
the role of the U.S. dollar or making it easier to evade 
sanctions.
    I yield back.
    Chairman Cleaver. Thank you.
    Thank you, to the witnesses who have agreed to be here with 
us. Let me apologize to you that we are getting started late. I 
am a part of a committee, a select committee, and it is a 
bipartisan committee, and we are working on congressional 
change, updates in the way we function until we are trying to 
create a system where we don't have votes interfering with 
committee hearings. It is the Congressional Committee on 
Modernization. This is only the third or fourth time in history 
we have had this committee in existence, and I think everyone 
is serious about trying to figure out ways in which we can 
avoid this kind of thing. So we apologize, but we thank you for 
being here.
    Our first witness is Mr. David Mortlock, who is a 
nonresident senior fellow at the Atlantic Council's Global 
Energy Center, and former Director of International Economic 
Affairs at the White House National Security Council.
    And let me go on and introduce all of the witnesses at this 
time.
    Dr. Michael Carpenter is senior director at the Penn Biden 
Center for Diplomacy and Global Engagement at the University of 
Pennsylvania, and former Deputy Assistant Secretary of Defense 
for Russia, Ukraine, and Eurasia.
    The next witness, Ms. Elizabeth Rosenberg, is a senior 
fellow and director of the Energy, Economics, and Security 
Program at the Center for a New American Security, and former 
Senior Advisor to the Undersecretary of the Treasury for 
Terrorism and Financial Intelligence.
    Next is Mr. Daleep Singh, who is a senior fellow at the 
Center for New American Security, and former Acting Assistant 
Secretary of the Treasury for Financial Markets.
    And then we welcome the final witness, Mr. Matthew Zweig, 
who is a senior fellow at the Foundation for Defense of 
American Democracies, and a former professional staff member of 
the House Foreign Affairs Committee.
    Welcome to all of you.
    We have 5 minutes for each of you. Pay attention to the 
light. It will tell you when to stop, and if you should go over 
very gently, then I will gently give you a hint.
    So with that, Mr. Mortlock?

STATEMENT OF DAVID MORTLOCK, NONRESIDENT SENIOR FELLOW, GLOBAL 
                ENERGY CENTER, ATLANTIC COUNCIL

    Mr. Mortlock. Thank you very much. Thank you very much to 
Chairman Cleaver and Ranking Member Stivers. It is a real 
privilege to be here with you today, particularly with such a 
distinguished panel, including several former colleagues.
    Sanctions are certainly an attractive tool in foreign 
policy crises. They give us many options between words and war. 
And there is no doubt that the United States, as the strongest 
economy in the world, can visit significant economic harm on 
its adversaries.
    Moreover, in recent years, the U.S. Government has gotten 
much more sophisticated at the way we impose sanctions. The 
sectoral sanctions for Russia, the restrictions on Venezuelan 
debt, and very sophisticated and nuanced carve-outs through 
licensing, has marked a real high-water mark for the Office of 
Foreign Assets Control (OFAC).
    Unfortunately, we also have proven that sanctions have 
their limitations. On occasion, they have often been more bark 
than bite. As Director for National Economic Affairs for the 
National Security Council, and Deputy Coordinator for Sanctions 
Policy at the State Department, I worked with the individuals 
at this table, and numerous others, to face these questions. 
Based on this experience, I would like to offer three 
principles that I believe should guide our imposition of 
sanctions, including those legislated by this body: first, 
sanctions should only be deployed in pursuit of a clear, 
broader policy goal; second, a sanctions regime must have an 
end game or an exit strategy; and third, sanctions must be 
backed up by a firm political commitment. Let me explain.
    So, first, an effective sanctions program must start with a 
clear and articulated policy goal. Economic pain in itself is 
not a U.S. foreign policy interest. The lack of consistent and 
implementable policy goals, as well as patient follow-through, 
has occasionally undermined the efficacy of sanctions under 
this President, even in areas where the Administration has 
implemented tough measures. For example, the Administration 
deserves credit for successfully corralling the world to impose 
tough sanctions on North Korea. But consistent sanctions have 
been undermined by a moving target on policy and the 
President's effusive praise for Chairman Kim, giving China, 
Russia, and South Korea an excuse to ease the pressure, 
reducing our leverage, and expanding North Korea's access to 
resources.
    Second, sanctions must have an exit strategy. If future 
targets of U.S. Sanctions are to change their behavior under 
the threat of sanctions, it will be because they find those 
threats credible and because they believe they have a path to 
relief. This approach worked when Iran took steps to dismantle 
its nuclear program in response to relief from very specific, 
nuclear-related sanctions, while the United States maintained 
other sanctions linked explicitly to terrorism and human rights 
abuses. President Trump's Iran strategy has relied on an all-
or-nothing approach, hoping for capitulation of the Iranian 
regime, something economic sanctions have never produced. 
Instead of a diplomatic resolution, the sanctions are more 
likely to produce a spiral of worsening aggression.
    Third, sanctions must have political backing. This is 
perhaps most obvious with respect to our approach to Russia. 
Strong U.S. sanctions measures for Russia have been undermined 
by the President's public subservience to Vladimir Putin. The 
sanctions are unlikely to compel a change in Russian behavior 
when that behavior is minimized and dismissed by the President.
    The Administration's mixed messages were illustrated 
recently by the removal of Rusal and other companies controlled 
by Oleg Deripaska from the SDN list. On the one hand, the 
action sent a strong message to other supporters and friends of 
President Putin: Facilitate Putin's aggressions and corruption, 
and you, too, could lose control of your corporate empire.
    Yet, the message to Putin's supporters was undermined by 
the Administration's failure to fully explain the reasoning and 
embrace the congressional review required by statute. This was 
a lost opportunity.
    Moreover, the Administration's failure to impose a second 
tranche of sanctions on Russia required by the Chemical and 
Biological Weapons Act after the attempted murder of Sergei 
Skripal has raised serious questions about the Administration's 
commitment to holding Russia accountable.
    To close, I will simply say that sanctions can be a useful, 
precise, and effective tool of U.S. foreign policy, so long as 
they are treated as a tool to implement a clear policy and a 
thought-out strategy. Beyond those principles, in my written 
testimony, I have outlined a number of ways Congress 
specifically can make sanctions more effective, including using 
other tools to complement the sanctions, such as beneficial 
ownership transparency. I invite your questions and thank you 
again for allowing me to appear before you today.
    [The prepared statement of Mr. Mortlock can be found on 
page 38 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Mortlock.
    Dr. Carpenter, you are now recognized for 5 minutes.

  STATEMENT OF MICHAEL CARPENTER, SENIOR DIRECTOR, PENN BIDEN 
   CENTER FOR DIPLOMACY AND GLOBAL ENGAGEMENT, UNIVERSITY OF 
                          PENNSYLVANIA

    Mr. Carpenter. Chairman Cleaver, Ranking Member Stivers, 
and distinguished members of the subcommittee, I am grateful 
for this opportunity to be before you today, to talk about the 
use of sanctions to address national security and foreign 
policy challenges.
    Some pundits claim that because sanctions haven't yet 
compelled Russian President Vladimir Putin to change course in 
Ukraine, Syria, or here in the United States, that sanctions 
are an ineffective policy instrument. It is true that sanctions 
are not a silver bullet, but when imposed at the right strength 
and combined with other policy levers, they offer the United 
States a unique ability to apply asymmetric leverage against 
our adversaries. This is particularly important when military 
options are off the table and when diplomacy alone is 
insufficient to compel our adversaries to change course.
    When it comes to Russia, sanctions are a particularly 
appropriate policy tool because of the threat the Kremlin poses 
to core U.S. national security interests. Russia's invasion of 
neighboring countries like Georgia and Ukraine, its violations 
of international treaties such as the Intermediate-Range 
Nuclear Forces Treaty or the Chemical Weapons Convention, and 
its brazen cyber attacks, information warfare, and corrupt 
influence campaigns to destabilize the U.S. and its allies must 
not be allowed to stand.
    In most cases, the reasons our sanctions fail is because we 
tend to conflate impactful measures with symbolic ones. To be 
effective, sanctions have to be impactful. And to be impactful, 
they really need to target the Russian economy as a whole. We 
kid ourselves when we think we can have an impact on Kremlin 
decision-making by surgically targeting this or that oligarch 
or government official. Multilateral sanctions on Iran during 
the period between 2012 and 2015 reduced Iranian GDP by roughly 
9 percent annually. For Russia, the figure is closer to 1 to 
1.5 percent. I understand that Iran and Russia have different-
sized economies, but my point is that the Kremlin has to feel 
some pain before it reevaluates its current course.
    Recall that President Putin was willing to spend $50 
billion on the Sochi Winter Olympics, which was a vanity 
project. To change course in Ukraine, which is a top foreign 
policy priority, he will need a much clearer incentive 
structure.
    To have real impact, in my view, the United States should 
consider imposing full, blocking sanctions, in other words, 
complete restrictions on all financial transactions on select 
Russian banks. These sorts of sanctions would need to be 
coordinated with our European allies, but they would not have 
to be matched by the EU and could, in fact, be imposed 
unilaterally if we chose to do so. This is because most Russian 
banks have extensive exposure to U.S. financial markets.
    To be clear, I am not arguing for unilateral action, 
because it would be far better to have our European allies 
along with us. However, at the end of the day, this is 
something the U.S. could do alone if we had to.
    To minimize risks of financial repercussions for our 
allies, such blocking sanctions would have to be applied 
iteratively to guard against the risks of contagion into 
European financial markets. In other words, the U.S. should aim 
to cause sufficient pain for the Kremlin to reconsider its 
policies, but not so much pain as to plunge our allies into 
recession. Sanctioning the Russian financial sector one bank at 
a time is a smart way to ratchet up pressure while keeping some 
of our powder dry for another day.
    It is also important that future sanctions be tied to one 
or two specific behaviors that we would like to see changed, 
for example, the verifiable withdrawal of Russian troops from 
Ukraine, and a stop to its interference in our democratic 
process. If we add on too many additional reasons or sanction 
Russia for past behavior that can't be changed, we greatly 
diminish the likelihood that Moscow will change its behavior.
    Finally, it is critical that sanctions be integrated into a 
more coherent strategy that makes use of diplomatic, military, 
and communications tools, as David has mentioned as well. Since 
the invasion of Ukraine, the U.S., France, and Germany have all 
condemned Russian aggression and even pledged troops to defend 
our allies in the Baltic States and Poland.
    But at the same time, Chancellor Merkel has supported 
building a massive natural gas pipeline between Russia and 
Germany. President Macron has traveled to Russia to trump up 
bilateral trade and commercial ties. And President Trump has 
proposed readmitting Russia to the G8. We can't expect 
sanctions to work if we provide the Kremlin with such mixed 
messaging. Together with a stronger military deterrence 
posture, a more coherent policy of economic isolation, and more 
rigorous efforts to make our institutions resilient to foreign 
interference, sanctions can, in fact, give us effective 
leverage to achieve our foreign policy goals. Thank you.
    [The prepared statement of Dr. Carpenter can be found on 
page 32 of the appendix.]
    Chairman Cleaver. Thank you, Dr. Carpenter.
    Ms. Rosenberg, you are now recognized for 5 minutes.

 STATEMENT OF ELIZABETH ROSENBERG, DIRECTOR AND SENIOR FELLOW, 
   ENERGY, ECONOMICS, AND SECURITY PROGRAM, CENTER FOR A NEW 
                       AMERICAN SECURITY

    Ms. Rosenberg. Thank you, Chairman Cleaver, Ranking Member 
Stivers, and distinguished members of this subcommittee, for 
the invitation to appear today and discuss the use of sanctions 
to address national security and foreign policy challenges.
    Sanctions are an essential means for the United States, its 
allies, and the international community, to respond to security 
threats. They are among the most powerful tools in the U.S. 
arsenal to exercise leverage over a wide variety of actors 
whose policies and threatening behavior U.S. leaders seek to 
change. It is no surprise that sanctions have become the go-to 
instrument for successive Administrations and Congresses and 
are now tools of first response in U.S. foreign policy.
    However, sanctions are not the solution for every 
challenge. They cannot force capitulation or topple a brutal 
regime. They cannot be a substitute for holistic strategy to 
address threats to our national security. On their own and 
without multilateral support or coordination, they can be 
leaky, ineffective, and very dangerous, undermining our 
national interests.
    Congress, through legislation and oversight, including in 
hearings such as this one today, has a critical role to play in 
advancing a sophisticated public understanding and analysis of 
sanctions and establishing principles for their responsible and 
effective use. At present, the United States maintains roughly 
30 sanctions programs. The Trump Administration has emphasized 
the threats emanating from Iran, North Korea, Venezuela, and 
Russia, and has wielded sanctions against these countries 
accordingly.
    On Russia in particular, the Trump Administration has 
embraced sanctions, including secondary sanctions, pursuant to 
a variety of Russian malign activities, and the Administration 
has implemented meaningful designations, though not at the same 
scale as their Iran sanctions implementation, for example.
    In one of the most high-profile sanctions designations in 
recent memory, the U.S. Treasury Department named Russia's 
Rusal with sanctions. While that designation was lifted earlier 
this year, of course, sanctions remain on its founder and key 
stakeholder, the Russian oligarch Oleg Deripaska.
    Additionally, the Trump Administration has designated under 
Russia's sanctions authorities the Equipment Development 
Department of China's military for conducting significant 
transactions with the Russian defense or intelligence sectors. 
The United States could also impose Russia-related defense and 
intelligence sanctions on countries such as Turkey, which has 
resisted complying with the sanctions and said it will not 
abandon its plan to purchase the Russian S-400 surface-to-air 
missile system.
    Recently, however, the Trump Administration has slowed the 
implementation of its Russia sanctions. There is a robust 
debate, as has been previously referred to, to my copanelists, 
about whether sanctions can change Russia's policies and 
threatening actions, and if so, how. However, U.S. policymakers 
must not abide inaction in the face of such doubts. Lack of 
response to Russia's threats only empowers Russia.
    Furthermore, the United States will lose credibility and 
allies in the campaign to push back on Russia if U.S. sanctions 
policy appears episodic, arbitrary, or lacking in strategy. The 
time is right for new, strong measures that impose real costs 
on Russia, constraining its ability to operate internationally, 
while minimizing potential collateral damage for U.S. 
interests, allies, and partners. Congress should consider new 
legislation at this time to address the grave threats presented 
by an array of Russian malign activity, including in the areas 
of malicious cyber activity; chemical and biological weapons 
attacks; interference in democratic processes, one of the main 
themes for the hearing today; human rights abuses; territorial 
aggression; rampant money laundering; and the undermining of 
international institutions, all of which undermine our national 
interests.
    Along with diplomatic, defense, and arms control 
provisions, new legislation could potentially include sanctions 
measures targeting the following areas: financial services, 
including related to issuance of sovereign debt; defense, 
intelligence, technology, and other economic sectors; as well 
as further measures targeting oligarchs. I have included 
several specific suggestions in my written testimony.
    In conclusion, the role of Congress in creating sanctions 
and overseeing their implementation and enforcement is 
critically important for the long-term ability of the United 
States to use this tool in pursuit of U.S. foreign policy and 
security goals. This work is nothing short of essential, given 
the factors that may undermine effectiveness and the 
availability of sanctions in the years ahead. The work will 
also be fundamental to balancing the use of sanctions with 
other tools of national power to strategically and effectively 
advance our core interests and values.
    Thank you for your time and attention, and I look forward 
to answering your questions.
    [The prepared statement of Ms. Rosenberg can be found on 
page 47 of the appendix.]
    Chairman Cleaver. Thank you, Ms. Rosenberg.
    Mr. Singh, you are now recognized for 5 minutes.

   STATEMENT OF DALEEP SINGH, SENIOR FELLOW, CENTER FOR NEW 
                       AMERICAN SECURITY

    Mr. Singh. Thank you, Chairman Cleaver and Ranking Member 
Stivers. You have asked whether current sanctions policy is 
effective, especially as it relates to Russia, so forgive me 
for being blunt, but my answer right now is ``no.'' This isn't 
just my opinion. Unlike other sanctions targets like Venezuela 
or North Korea, Russia is a market-based economy. That means by 
looking at market prices, we can gauge in realtime the opinion 
of investors across the world about the impact of sanctions. We 
can also analyze economic data in Russia at a high frequency, 
and, of course, we can look at Putin's own behavior, which is 
the ultimate test of whether sanctions are working.
    So what are the data telling us? After an 18-month 
recession in 2015 and 2016, the Russian economy is now growing 
again. In fact, Russia's GDP grew in 2018 by the fastest amount 
in 6 years. Inflation has fallen from a peak of 17 percent in 
late 2014 to an all-time low last year. Foreign reserves in 
Russia are now back to pre-sanctions levels, almost $500 
billion in total. Russia's budget and trade balance are both 
well into surplus.
    Financial markets are sending the same message. In 
February, Moody's upgraded Russia's sovereign debt from junk to 
investment grade. In March, the Russian government placed the 
largest amount of dollar issuance since 2013, and foreign 
investors bought over half of Russia's ruble bond issuance in 
the first quarter. The Russian ruble and the Russian stock 
market are both among the top performers in the world this 
year.
    Why is this happening? While rising oil prices are part of 
the story, so is the perception that the U.S. lacks the 
political will to stand up to Putin. Market prices are shaped 
by expectations about the future. And when investors consider 
the future, they read signals from U.S. policymakers, none more 
important than the words of the President. What they hear is 
doubt and skepticism about whether Russia attacked our 
democracy. They are told it would be a good thing to get along 
with Russia. They see no serious action against Russia's use of 
chemical weapons on NATO soil. Instead, they read about long 
and warm phone calls and a continued rhetorical embrace. They 
put these signals into context. They know this President is 
masterful at using signals to impose costs on Iran, Venezuela, 
North Korea, and even China. And when contrasted with the 
absence of serious criticism towards Putin, they see a flashing 
green light to pick up Russia exposure on the cheap, and that 
is exactly what has happened.
    Does any of this mean that sanctions can't work in Russia? 
Absolutely not. Along with colleagues from this panel, I was 
part of the effort in 2014 to impose costs on Russia's economy 
through sanctions. Our approach was effective and would still 
work today. Find asymmetries. Where does economic leverage in 
the U.S. intersect with Russia's economic vulnerability? 
Financial capital and energy technology were--and are--obvious 
pressure points. U.S. and European firms are the dominant 
suppliers of what Russia needs and can't replace.
    What was the impact in 2014? In the first instance, Russia 
depleted 25 percent of its foreign reserves trying to defend 
the ruble before surrendering to market forces. The ruble then 
depreciated up to 50 percent in value. Capital flight reached 
record levels. The central bank of Russia only slowed this down 
by raising interest rates by 10.5 percentage points. Banks then 
needed bailouts to avoid bankruptcy. Ultimately, the Russian 
economy fell into recession while inflation spiked to the mid-
teens.
    So falling oil prices definitely played a major role in 
this spiral, but sanctions were undeniably a secondary shock. 
And throughout the process, unified signaling from the 
President, from this Congress, and from European partners acted 
as a force multiplier. Costs would ratchet higher unless Putin 
changed course.
    Now, do these costs matter to Putin's calculus? We can't 
prove a counter-factual, but I believe the answer is ``yes.'' 
Were it not for the mounting cost of crisis in the Russian 
economy, Putin's forces likely would have annexed more of 
Ukraine's territory or marched all the way to Kyiv. Sanctions 
gave Ukraine breathing space to avoid an economic collapse and 
remain a sovereign nation.
    Ultimately, Putin is a tactical opportunist, and if that is 
right, then costs matters and sanctions matter. So what do I 
recommend now? I suggest in the absence of Presidential 
leadership, Congress must again show the way on Russia 
sanctions. This is far from ideal. At best, the signals will be 
muddled, but it would be far worse if our system of checks and 
balances was questioned. Specifically, my main recommendation 
is to ban purchases of new Russian sovereign debt and any 
currency. There is simply no good reason why U.S. pension funds 
and 401(k)s should fund Putin as he actively undermines our 
national interests all around the world.
    We also have to do a better job of winning the narrative on 
sanctions. If there was a failing in 2014, it was that most 
Russians bought Putin's propaganda that U.S. sanctions were 
just the latest example of keeping Russia down. This 
scapegoating muted the damage to Putin's power structure and 
gave his regime endurance.
    Our best weapon in this fight is transparency. We need to 
expose the corruption and criminality of the Kremlin by 
identifying the scale, location, and holdings of Putin's 
wealth, and that of his cronies around the world. Putin is 
ripping off the Russian people, and they deserve to know it.
    Equally important to winning the narrative is relaunching 
an economic offensive in Ukraine. I would be happy to discuss 
that in my testimony. But Russians deserve more than Putinism, 
and we need to show them what free market democracy can do.
    [The prepared statement of Mr. Singh can be found on page 
61 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Singh.
    And Mr. Zweig, you are now recognized for 5 minutes.

   STATEMENT OF MATTHEW ZWEIG, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Zweig. Chairman Cleaver, Ranking Member Stivers, and 
distinguished members of the subcommittee, I am honored to 
appear before you today. As Congress considers its options for 
additional sanctions against Russia, based on the general 
principles contained in my written testimony, the legislative 
proposal before us, and others circulating in the House and the 
Senate, I would like to share with you a few thoughts on 
sanctions legislation moving forward.
    First, consider developing specific termination criteria 
for sanctions. The primary difficulty with respect to measuring 
the impact of legislatively mandated sanctions against Russia 
in the 2017 CAATSA sanctions is that there is no specified 
termination criteria for those sanctions as a whole. CAATSA 
sanctions were obviously predicated on a wide array of malign 
Russian behavior, but Congress did not specify the specific 
behavioral changes that would have to take place for Russia to 
receive sanctions relief. Without articulating in legislation 
clear objectives for Russia to meet in order to qualify for 
such relief, the sanctions may be viewed as indefinite, giving 
Moscow little incentive to change its behavior, and creating 
uncertainty or confusion with our allies and partners with 
respect to our specific foreign policy objectives.
    Second, future election-interference sanctions may want to 
consider not only being targeted at Russia. While Russia has 
clearly developed a sophisticated approach to election 
interference, it is not the only state or nonstate actor that 
can avail itself of such tactics and techniques. Therefore, any 
future legislation aimed at preventing Russian interference in 
foreign elections or U.S. elections could seek to capture 
Russia through a conduct-based regime rather than targeting 
Russia specifically.
    I agree with my colleague, Liz, with respect to her written 
testimony, recommending the codification of Executive Order 
13848. I would recommend going a step further and broadening 
the application of the measures contained in that executive 
order, applying mandatory sanctions against foreign persons or 
foreign states that engage in election interference against the 
United States and include discretionary sanctions with respect 
to those that interfere in our allies' elections. We are not 
alone in this.
    Congress could also ensure that legislative sanctions are 
synchronized effectively with existing criminal statutes in 
order to support or supplement possible indictments, 
prosecutions, and extraditions.
    Third--and a few of my colleagues have made this point as 
well--close coordination with our allies is important. Any 
additional U.S. action with respect to Russia's sanctions will 
likely have an impact on U.S. allies and partners, given the 
scale of the trade relationships that could be affected. Any 
new congressional sanctions should take active measures to 
guard against doing unintended or severe harm to U.S. allies. 
While some legislative proposals being considered by Congress 
note the need to coordinate and cooperate with Europe, for 
example, any new legislation should consider developing an 
explicit cooperative mechanism within those sanctions 
themselves. This is another area where balanced flexibility 
could help preserve alliances or partnerships as rigid 
sanctions could punish governments that are aiding the U.S. in 
other efforts to counter malign Russian behavior but that may 
not be able to fully comply with U.S. sanctions.
    Conversely, these sanctions can also be used to provide a 
push for U.S. allies to take action in other areas against 
malign Russian behavior. One of Putin's overriding objectives 
has been to split the U.S. and EU on Russia- and Ukraine-
related sanctions. We should not inadvertently aid those 
efforts.
    Finally, utilize existing oversight mechanisms to ensure 
the near-term application of additional Chemical and Biological 
Weapons Control and Warfare Elimination Act sanctions that 
David mentioned in his testimony.
    As of today, the Administration has not implemented the 
second round of the sanctions, nor has the President determined 
that Russia meets the conditions needed to avoid them. Congress 
has a role to play in ensuring that the Administration in this 
instance imposes the strongest possible and appropriate 
measures as part of the second round, measures that can have a 
direct impact on the content of the legislative proposals under 
consideration by this committee and the House and the Senate.
    Thank you again for the opportunity to appear before you 
today, and I look forward to receiving your questions.
    [The prepared statement of Mr. Zweig can be found on page 
68 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Zweig.
    I now recognize myself for 5 minutes. I began this 
committee hearing by talking about the fact that the Executive 
Branch--and some of you have mentioned it, too--never moved for 
the second round of sanctions. Can any of you give us some 
reason to believe that the failure to do that was part of some 
kind of strategy and that we just simply need to be patient? 
Ms. Rosenberg?
    Ms. Rosenberg. Mr. Chairman, I have no reason to believe 
that that was by design as part of a strategy, that there is an 
intent to, indeed, implement those sanctions at any time in the 
near future. I share your concern, implied, that the 
Administration is behind and absent in implementation.
    Chairman Cleaver. Well, I am very serious; I am not trying 
to be sarcastic. I am looking for something that would allow me 
to be able to respond to people about the fact that there is or 
there is not a strategy. And if there is not a strategy, then 
why? I mean, the whole issue with Deripaska is just extremely 
frustrating. Why not the 50-percent rule? Anybody? Mr. 
Mortlock?
    Mr. Mortlock. If I could, first, quickly address your 
question on the CBW sanctions. Like Liz, I do not know the 
Administration's motivations or intent, but I do know that the 
statute suggests that the second round of sanctions was due on 
November 5th, based on the determination made by the Secretary 
of State. So the Administration knew what they were getting 
into when they made that determination.
    I think, while the motivation is unclear, the result is 
crystal clear, which is essentially a waffling of our 
government's response to an assassination attempt by the 
Russian government. And I think--
    Chairman Cleaver. On British soil.
    Mr. Mortlock. On British soil, that is right. And I think 
the consequence is demonstrating a lack of consequence for an 
action like that by the Russian government, which means they 
are just more likely to try such things again. With respect to 
Deripaska and the delisting of Rusal, I think at the heart of 
it, the delisting by itself is not necessarily a bad outcome, 
right? The fact that we were able to reach a very transparent--
unprecedented, transparent deal with Mr. Deripaska, the 
Treasury Department was able to do so--is good news, and he did 
lose control--while he did financially benefit in some ways, he 
did lose control of companies that he had used to define 
himself over the past decades. I think where the failure was, 
was in the Administration explaining that. And again, the 
impact of sanctions is going to be whether that threat is 
credible. And to make that threat credible to Putin's other 
supporters, the explanation needed to be clear, but the 
Administration notified Congress immediately before the 
holidays, from what I understand, participated in a limited 
number of briefings and responding to Members' and staff's 
questions. And it really was a lost opportunity by the 
Administration to have a positive impact on the Russia 
sanctions.
    Chairman Cleaver. Do any of you believe that the lack of 
some kind--you know, I had a meeting with my farmers, dealing 
with the tariffs. I represent a farm area in Missouri, and they 
are hurting. But one of the things they wanted to know is, what 
is the strategy on this? Are we taking steps to reach this, and 
so we are going to do this and then this? Does this hurt us 
with our diplomacy all over the world, the fact that we can't 
put our finger on this? Congress voted overwhelmingly--the 
House did, I'm sorry--that this is not a Republican or 
Democratic issue--to support sanctions. And we have not been 
able to do it, and, of course, we don't have the power of law. 
Anybody, any of you who would like to respond--Dr. Carpenter?
    Mr. Carpenter. So, Mr. Chairman, I would say the fact that 
CAATSA was passed with such overwhelming margins in both the 
House and the Senate, as you just referred to, and the fact 
that those authorities likely already existed with the 
Administration, with the Executive Branch, to pursue much 
deeper and stronger sanctions against Russia but have not 
resulted in follow-up, as expressed in the bill, which is now 
law, sends a clear message to Mr. Putin that this 
Administration is not willing to go after him, that they are 
not willing to impose significant economic pain on Russia, and, 
therefore, he can continue, and he does continue, his strategy 
of waging war in Ukraine. There are soldiers and civilians who 
die almost every single day, propping up the Assad regime in 
Syria, propping up Maduro in Venezuela, and so on and so forth, 
including, by the way, interfering actively in our democratic 
process to this very day.
    I think the message that Mr. Putin takes away from this is 
that he is free to continue with his current policies because 
the repercussions and consequences simply will not be felt.
    Chairman Cleaver. Thank you, Dr. Carpenter.
    I will now recognize the gentleman from the great State of 
Texas, Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman.
    Mr. Zweig, on page 4 of your testimony, you state that the 
previous round of sanctions against Russian aluminum producer 
Rusal reduced the net worth of the wealthiest 27 Russian 
individuals by $16 billion in 1 day. As a result of these 
sanctions--we have talked about him--Deripaska reduced his 
shares in the company from 70 to 45 percent. The Treasury 
Department believes that this divestment from the oligarch 
provided enough justification to lift the sanctions against 
Rusal since Deripaska's influence had been appropriately 
diminished. Mr. Zweig, my question for you is this: Do you 
believe these types of targeted sanctions are still an 
effective tool against Russia given that the oligarchs wield 
such power with the economy with little accountability?
    Mr. Zweig. Thank you, Mr. Williams. I not only think it is 
potentially an effective tool depending on how it is used in 
the Russia context, but also in the Venezuela context, and that 
is where you have seen those types of tools increasingly 
utilized. As far as specifically spelling out in advance the 
specific requirements that persons or entities have to fulfill 
in order to get off the sanctions list well in advance.
    My overall concern with respect to the Rusal delisting 
centers on two issues: first, the number of politically exposed 
persons involved despite the intrusive requirements of the 
agreement; and second, whether the Administration would have 
the political will or whether political will exists anywhere, 
given the European response to the Rusal listing, to relist 
them if there were a violation of the agreement that the 
Administration commenced with Rusal.
    Mr. Williams. Okay. Thank you. North Korea recently began 
testing missiles again and continues to be an aggressor in the 
region. This is obviously a heavily sanctioned country, yet 
they have been able to circumvent some of the multilateral 
measures put in place by the United States and our allies. My 
question to you, Ms. Rosenberg is, can you discuss how North 
Korea most regularly--access to the global financial system as 
well as the role Chinese financial institutions play in 
attaining critical weapon components and technology?
    Ms. Rosenberg. Thank you for the question. You point out 
something that is a disturbing phenomenon that is going on: 
North Korea's continuous, over many years, evasion of 
international and U.S. sanctions, that has been facilitated by 
a network of front companies and trusted individuals who have 
had tremendous success in doing so.
    China is a major lifeline for North Korea. Most North 
Korean trade and financial transactions move through China, 
which means that most roads lead to China on successful 
enforcement of North Korea. And when we see North Korea evading 
these sanctions, it means that our problem is primarily China 
and the lack of enforcement, political will, and technical 
capacity by those banks in China and trading companies that 
facilitate, wittingly and unwittingly, this North Korean trade.
    Mr. Williams. Okay, thank you.
    Mr. Singh, in your testimony you mentioned that, beyond 
sanctions, we must focus our efforts on winning the domestic 
narrative within Russia about the corruption of the Putin 
regime and Russian aggression. Now, while I understand the 
thought process behind that, I am really worried about how 
achievable this goal is. In the first 6 months of 2017, the 
number of people detained for violating regulations on public 
gatherings in Russia was 2\1/2\ times higher than the entire 
total in 2016. So can you elaborate on how you think this could 
be achieved when Putin is willing to take drastic steps to get 
rid of dissidents and control his own narrative?
    Mr. Singh. Yes, Congressman, this is a key part of how 
sanctions need to work going forward. I think we have the 
information about Putin's wealth and that of his cronies. A lot 
of it has been classified. I think to the extent that we can 
overcome concerns about sources and methods, we need to just 
distribute this information. Transparency is our best weapon in 
this regard.
    The second thing we can do is look at how stashes of dark 
money are being stashed in the U.S. Our beneficial ownership 
rules currently allow anonymous shell companies, other forms of 
investments, to find their way into high-end real estate in 
Miami, New York, and other places, and we don't know who the 
ultimate owner is. I think it is a reasonable assumption that a 
lot of that money comes from Russia and from the Kremlin inner 
circle. If we can't expose it in Russia, let's expose it here.
    And then the third thing we ought to do in terms of winning 
the narrative is show a better example in Russia's near abroad, 
and that means being really serious about helping Ukraine 
emerge from crisis. Right now, their reforms are languishing. 
It is the poorest country in Europe on a per-capita income 
basis. They need money. We ought to provide money with 
conditions that force Ukraine to battle corruption and embrace 
market-oriented reforms. That is Putin's worse nightmare, and 
we ought to do it.
    Mr. Williams. Thank you. I yield back.
    Chairman Cleaver. Thank you.
    The Chair now recognizes the Chair of the full Committee on 
Financial Services, Chairwoman Waters.
    Chairwoman Waters. Thank you so very much, Mr. Chairman. I 
appreciate the opportunity to raise a few questions. We have 
initiated a few sets of sanctions on troll forums and those who 
led the sabotage of our American elections. We know that these 
individuals and entities continue to abuse social media to try 
to divide Americans based on race, vaccinations, and elections 
to come.
    And we understand there is or has been a weak Presidential 
Executive Order, but we are looking at our 2020 elections, 
knowing that they are coming again, and I want to ask first 
about the President's Executive Order. Does it deal with what I 
am alluding to, the undermining of our democracy by hacking 
into the DNC and our election systems? Mr. Singh, do you know 
and understand a lot about the President's Executive Order?
    Mr. Singh. Madam Chairwoman, my understanding is that it 
simply repeats authorities that already exist, but those 
authorities haven't been exercised. And so, in a practical 
sense, nothing has happened.
    Chairwoman Waters. Well, first of all, I want to kind of 
respond a little bit to the information just shared about 
beneficial ownership and some other kinds of things. I 
understand that the Russian economy has not been hurt at all by 
our so-called sanctions, that they are doing very well. I want 
to get directly at the systems that are used to undermine our 
democracy and our elections, and I think you are right about a 
sanction dealing with beneficial ownership. Because I do think 
these high-end properties in California and New York, for 
example, are owned or invested in by Russians. So, aside from 
what is being attempted in the President's weak order, what 
else can we do, particularly getting at the systems that they 
use for trolling and undermining our democracy? Mr. Carpenter?
    Mr. Carpenter. Yes, thank you, Madam Chairwoman.
    My belief is that a lot of the methods that the Russians 
use to interfere in our democracy, including cyber attacks, 
including information warfare, putting up disinformation 
through social media, or using dark money to try to perpetrate 
influence campaigns, these are all operations run via proxies. 
It is very difficult to find the actual individuals behind 
these.
    Now, our intelligence community has done some excellent 
work in terms of designating individuals within a particular 
unit of Russia's military intelligence agency who were involved 
in hacking, in terms of identifying also individuals within the 
Internet Research Agency that were involved in spreading 
disinformation. But sanctioning those individuals or even those 
organizations really doesn't have an effect. The GRU can be 
sanctioned and has been sanctioned, and it is not going to 
change the way it operates because they don't conduct 
transactions through transparent means.
    What we need to be doing is imposing tough pain on the 
Russian economy as a whole. Some of the measures that have been 
discussed here, including new sovereign debt, but also as I 
have proposed, going after Russian banks with full blocking 
sanctions. That sends a message to Mr. Putin that he will feel 
pain for interfering in our democratic process. If we go after 
specific actors, it is useful to expose what they are doing, 
but it does not send a truly grave consequence to the Russians.
    Chairwoman Waters. Okay. Let me just ask you this, quickly, 
in late 2018 and early 2019, we have seen a number of signs 
that markets no longer see a significant risk of sanctions 
escalation on Russia. For example, in recent months, the 
Russian government issued a new U.S. dollar, denominated by an 
attractive rate, indicating the markets think there are solid 
fundamentals. In another sign that markets have priced out 
sanctions risk, in early February Moody's upgraded Russia's 
rating. Moreover, in March, French oil company Total signed a 
massive new agreement to develop LNG resources in Russia. Does 
this increasing appetite by markets for Russian assets suggest 
that the markets don't see the Trump Administration's Russia 
sanctions policy as credible?
    Ms. Rosenberg. Madam Chairwoman, may I respond to your 
question?
    Chairwoman Waters. If the Chair will allow you, yes.
    Yes, please go ahead.
    Ms. Rosenberg. Thank you very much. I think that is exactly 
the signal that markets have understood. They look at the Rusal 
delisting example in particular as an example that the U.S. 
Administration blinked, it lost its spine, it won't be imposing 
tough penalties for the array of Russian malign activity that 
it is conducting and has conducted, and therefore, they feel 
confidence in investing in that market because they don't 
believe that they will be hit by sanctions in the future.
    Chairwoman Waters. Thank you so very much.
    The Chair has been generous. And I yield back the time I 
don't have.
    Chairman Cleaver. Thank you, Madam Chairwoman. The Chair 
now recognizes the gentleman from Arkansas, Mr. Hill.
    Mr. Hill. Thank you, Mr. Chairman. I appreciate that.
    I appreciate the panel before us for bringing your 
expertise and I also thank you for your service to the country, 
those of you who have served ably at the Treasury and other 
locations. And there is no doubt that we have sanctioned Russia 
in this Administration and in the Obama Administration, and I 
just want to be on record that Congress supports that. We have 
worked together for 4 years, 2 in the Obama Administration and 
2 in the Trump Administration, to send that message to Russia 
and to Putin and to his cronies. And I just hope that--I sense 
a little bit of second-guessing, a little significant criticism 
on the panel, and I wouldn't ask you if you supported President 
Obama's release of sanctions on Cuba, for example, Cuba being 
the largest supporter of the disaster in Venezuela. I won't put 
you on that spot. I won't put you on the spot, having worked in 
the Obama Administration, about the lack of sanctioning Russia 
in any meaningful way for the absolute systematic dismantling 
and destruction of the country of Syria. I won't bring that 
subject up.
    But with that said, I really appreciate your service and 
appreciate your comments today, particularly the constructive 
ones you made.
    And I am curious, as we have done on Iran in the last 
Congress, your views, Ms. Rosenberg, on this issue of naming 
names that Dr. Carpenter talked about in Russia, as we proposed 
in Iran in the last Congress, how to do that and also protect 
sources and methods but get the point across, because this 
legislation proposes that.
    Ms. Rosenberg. I do think there is an important role for 
transparency, and everywhere there is an opportunity to 
declassify information about Russian agents and entities that 
are involved in doing harm to U.S. national security, we should 
do that. And I appreciate the effort of Congress, and this 
committee in particular, in making this point precisely with 
regard to Russia.
    The particular language in this bill is designed to go 
after that point. There are other ways this committee has and 
that you can focus on the issue of declassifying information 
and making notice of it. One particularly important way to 
promote transparency in this regard is the committee--rather 
the legislation before this committee on beneficial ownership, 
which is a wonderful opportunity. I would urge you to advance 
that to the greatest extent possible.
    In addition to that, the opportunity--your urging of the 
Financial Crimes Enforcement Network and the Treasury more 
generally to give information about the typologies or 
methodologies of Russian money laundering in the United States. 
Particularly, we heard the reference to geographic targeting 
orders, the purchase of high-end real estate in cash, for 
example, which--
    Mr. Hill. Excuse the interruption, but during the Obama 
Administration, of course, we did sweep exams and targeting 
exams in New York and Miami that Dr. Carpenter was referencing. 
Do you think you had a good track record in that work?
    Ms. Rosenberg. I think there is much more to be done. I am 
pleased that that effort started. That was a new initiative 
just a number of years ago, and responded to a--
    Mr. Hill. And it continues today, right?
    Ms. Rosenberg. Absolutely. And in many more geographic 
locations than have been named publicly so far.
    Mr. Hill. Good. So I am supportive of that, too. This 
committee has been very supportive over the years of that 
geographic targeting, and I would hope that we would get 
testimony from FinCEN on exactly what they have learned from 
that, even if we have to do it in a classified setting. Because 
as we have talked in here, we collect beneficial ownership 
information, and we have a requirement to know our customer 
since 1999, in the financial industry. And if people don't 
understand the beneficial owners, they should have been filing 
a SAR on those people. So I just want to--I always want 
audiences to understand, we collect that information, and we 
have a legal expectation to do that. And what the Treasury has 
tried to do in the last year or so is clarify what to measure, 
and what we are debating about is how to improve that 
collection, make it the best that it can be, to support both 
the business community and the banking and financial community 
and bring balance to that.
    But I don't want anyone watching this testimony to think 
that we don't collect beneficial ownership information, we 
don't have our financial institutions held to a high standard 
of trying to get that information and providing it to FinCEN 
when we have a particular concern about suspicious activity.
    Let me turn to North Korea, if I could. In the Treasury 
sanction, Chinese trading companies that have had connections 
with North Korea, and in that reporting, there were 5,000 such 
companies in China operating between 2013 and 2016. It makes it 
very difficult, even though we have now sent a U.S. Coast Guard 
cutter over to help interdict in the waters over there as of 
last month.
    Should we sanction the Chinese banks more aggressively, Ms. 
Rosenberg?
    Ms. Rosenberg. We have some examples of that to learn from. 
So the Administration has gone after--the Bank of Dandong is 
one example--Chinese financial institutions. And there are 
doubtless opportunities to think about that in the future.
    Mr. Hill. Thank you.
    I yield back.
    Chairman Cleaver. Thank you.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    And I promised myself not to get mad today. But listening 
to the testimony and sort of going back over the invasion of 
Ukraine, Crimea, the cyber war that has been conducted against 
us, the biological warfare and the chemical warfare, killing 
the guy in England, and the fact that we keep, instead of 
ratcheting up sanctions, laying off the sanctions, the crying 
wolf.
    Mr. Singh, you talked about the rhetorical embrace. I 
remember the picture of the big wet kiss between Putin and our 
President. It was just a painting and all that.
    If you were to give me a continuum of sanctions against 
Russia, where would freezing their assets be?
    Mr. Singh. That is very close to the top.
    Mr. Perlmutter. So just kind of run through what kinds--
where we are, if we were enforcing sanctions, and where we 
could go if we considered these acts to be as terrible as I 
think they are.
    Mr. Singh. Yes, sir. There is a spectrum.
    At the mild end of the spectrum are sanctions on 
individuals. At the more extreme end are sanctions on the 
entire economy. And then, as you go across that spectrum, 
whether it is an individual or it is the entire economy, you 
can have either greater or lesser depth of the sanctions.
    In other words, right now, we have sanctions on a lot of 
Russian banks, a lot of Russian energy companies, but we only 
restrict their ability to raise money from U.S. investors. And 
Europe has done the same.
    A more extreme step is to block any kind of transaction by 
that bank with the U.S. financial system. In other words, you 
can shut them out entirely.
    But I want to emphasize, the actions haven't diminished 
greatly in the last couple of years. What has changed are words 
and our signals. Russia is a market-based economy. The pain is 
transmitted through markets. And, yes, markets care about the 
actions, absolutely, but they are really conditioned to read 
the guidance from our top leadership. That is the biggest 
reason why Russian markets are where they are now versus where 
they were in 2014 and 2015 when Russia was really on the ropes.
    Mr. Perlmutter. So Mr. Mortlock talked about how there has 
to be a broader policy goal, as one of the three things that 
you mentioned; there has to be an exit strategy, an endgame, 
and political commitment, which is more or less what you have 
just been talking about.
    And going back to Mr. Deripaska and Rusal and En+, or 
whatever it is called, as part of our relief that the President 
demanded and Congress, at least the House, objected to, as I 
understand it, he still is under sanctions, but the company is 
not, his ex-wife got some of his interest in it. Some family 
members got some interest in it. And the value of that company 
is way up to the point that there, in effect, is no sanction.
    Mr. Mortlock, can you comment on that?
    Mr. Mortlock. Absolutely. On the delisting of Rusal, I 
think the--again, in theory, that could have been a good 
outcome, to have an SDN publicly divest from his biggest 
companies. We tried to do similar efforts in Burma over the 
years. And so this was a big moment. It could have set a 
blueprint for how we do this in the future. Again, the end game 
of how people come after the sanctions list.
    I think the failure here was the Administration sending a 
strong message--there was obviously an explanation of what that 
deal looked like, but it was very complicated, it was complex. 
It was--there were financial benefits to Mr. Deripaska, and, 
frankly, there was a complete failure to explain to the public 
and to this body why it was a good outcome for the U.S. 
sanctions program and, most importantly, to send a strong 
message to Putin's other friends about what they needed to do.
    And I think really if I could give another example of what 
you are trying to get at here, is I think there are a lot of 
sanctions on the books on Russia already. I am certainly not 
against the other measures that have been proposed by the other 
panelists, but there are a lot of sanctions on the books 
already that simply are not being implemented as they should 
be.
    For example, speaking about Oleg Deripaska, it may surprise 
a lot of people to learn that there are actually secondary 
sanctions, so similar to what we have on Iran, in CAATSA, for 
any significant transaction with an SDN, a Russian SDN, 
including Mr. Deripaska. But no one has been sanctioned under 
those provisions. It is hard to imagine that there has been no 
company anywhere in the world that engaged in a significant 
transaction with Deripaska.
    Mr. Perlmutter. Thank you. My time has expired.
    I yield back.
    Chairman Cleaver. Thank you, Mr. Mortlock.
    The Chair now recognizes Mr. Gonzalez from Ohio for 5 
minutes.
    Mr. Gonzalez of Ohio. Thank you, Mr. Chairman.
    Thank you all for your testimony and, again, for your 
service to the country.
    Look, there is bipartisan support in this committee and 
across Congress for devising an effective sanctions regime and 
program against Russia and anybody, whether we are talking 
about China or ISIS, whomever it is. This committee is 
committed to that, and that is a good thing.
    I do take exception to some of the testimony that seemed to 
imply, Mr. Mortlock and Mr. Singh, that the Obama-era sanctions 
were somehow--I won't call it the Holy Grail, but that you guys 
kind of cracked the nut on Russia, and everything there has 
been downhill.
    I would just like to remind you of a few things: one, in 
the 2012 election, the comment, ``The 1980s called and want 
their foreign policy back,'' with respect to Russia; two, in 
2014, after sanctions had been implemented, the Malaysia 
Airlines flight was shot down; three, in 2015, Russia bombed 
anti-Assad rebels years after the red line was crossed; and 
four, in 2016, the Russian misinformation campaign.
    So I appreciate the effort, certainly, and the sentiments, 
but to suggest that the Obama-era sanctions were fantastic and 
everything since has been downhill, I think paints an 
inaccurate picture. Frankly, I think we just haven't figured 
this out as a country. You can look at multiple Administrations 
across multiple parties. I don't actually think this is 
partisan. I think we just haven't figured out exactly how to 
deal with Russia, and China, frankly.
    But, with that, I will shift to questions.
    Ms. Rosenberg, in your written testimony, you suggested 
measures to sanction primary issuance of Russian sovereign 
debt. Given Europe's dependence on Russia for its energy 
supply, can this discussion draft change Russia's behavior 
without our European allies' support, and can we successful 
changing Russia's rogue behavior if we are acting unilaterally, 
in your opinion?
    Ms. Rosenberg. I think it is possible to succeed acting 
unilaterally, though it is more likely that the U.S. will be 
successful if there is multilateralism. Whether that is 
sanctions coordinated and taken on the part of Europe or 
something less than or different than that, where there is an 
effort at coordination but no sanctions from Europe, 
nevertheless an effort to try and keep the pain focused on 
Russia and not on our European allies.
    Mr. Gonzalez of Ohio. Thank you.
    And then, Mr. Singh, you sort of talked about the 
overwhelming driver of the rebound in the Russian markets being 
the change in tone. Is it fair to characterize your comments 
that way?
    Mr. Singh. That is right.
    Mr. Gonzalez of Ohio. Okay. Can you talk about the 
difference between where we are today, where you have Europe 
basically partnering with Russia on more of its energy projects 
and soliciting for our help in that in some ways, versus back 
in the 2014 timeframe when the Obama-era sanctions were 
implemented?
    Mr. Singh. Sure. So I want to be clear, just to respond to 
your earlier comment.
    Mr. Gonzalez of Ohio. Can you focus on this one, please?
    Mr. Singh. Yes, I am going to respond--
    Mr. Gonzalez of Ohio. Okay. Perfect.
    Mr. Singh. --in the context of that.
    Mr. Gonzalez of Ohio. Thank you
    Mr. Singh. The Obama-era sanctions were not perfect. There 
were lots of failings. And as I mentioned in my comments 
earlier, we didn't win the narrative within Russia. The 
narrative that Putin spread that this was another historical 
injustice perpetrated by the West on the Russian people carried 
the day. That was a failing.
    I think more transparency about his criminality is part of 
the solution to that. Also, showing to the Russian people that 
there is another choice they can make and showing that Ukraine 
is another big part of the answer.
    Specifically on your question, look, the Europeans have had 
dealings with the Russians for a long time. Some of those have 
increased. But if we want to figure out how do we actually have 
more impact right now on Russia, we have to do what Dr. 
Carpenter suggested. We have to think about how to impose costs 
on the entire Russian economy. Right now, we are in a much 
worse place than we were in 2014.
    Mr. Gonzalez of Ohio. So I will agree with Dr. Carpenter's 
point. I would agree with that.
    Let me shift to Mr. Zweig and Venezuela, if I have a 
moment. Many of our partners and allies recognize Juan Guaido 
as the legitimate leader of the Venezuelan people. In one of 
your policy briefs, you argued for the Administration to expand 
the sanctions architecture against the Maduro regime's foreign 
allies and enablers.
    Can you kind of just go into detail on that, if you could? 
Because we have a lot of players in there now, who are kind of 
mucking up the whole thing.
    Mr. Zweig. Absolutely, sir.
    In fact, probably about 6 weeks after that was written, the 
Administration sanctioned, under Executive Order 13850, 
sectoral Venezuelan sanctions, I think it is Evrofinance bank, 
a Russian bank, for involving themselves in both corruption and 
sectoral-based violations.
    One of the ideas that we have been floating around is--
well, number one, both China and Russia have significant 
investments in Venezuela. And as far as demonstrating a success 
in pushing one of them or one of the significant--one of the 
significant company out--
    Mr. Gonzalez of Ohio. I believe we are out of time, Mr. 
Zweig. My office will follow up with you. I would love to talk 
about this.
    Mr. Zweig. Absolutely.
    Mr. Gonzalez of Ohio. Thank you so much.
    Chairman Cleaver. Thank you.
    The Chair now recognizes the gentlewoman from Virginia, Ms. 
Wexton.
    Ms. Wexton. Thank you, Mr. Chairman.
    And thank you to all of the witnesses for appearing today.
    I appreciate all of the discussion of Russia, and there is 
obviously a lot going on there. But I do want to switch gears 
very briefly and talk about China and its treatment of ethnic 
Uighurs and other Turkic Muslim groups in the Xinjiang 
autonomous region of China because my district in Northern 
Virginia is one of the largest populations of Uighurs in the 
United States. And I would imagine most of you are aware that 
the Chinese Communist Party has undertaken a methodical 
campaign of oppression and an apparent attempt to wipe out the 
religion and ethnicity of the Uighur people.
    The Pentagon estimates that between 1 to 3 million Uighurs 
are being held in concentration camps, which is the term that 
the Pentagon uses, and being reeducated. Many more are living 
under a very tightly controlled surveillance system where 
government-assigned relatives are living with Uighur families 
and reporting back to the Communist government about what is 
going on within those households.
    And this surveillance is not confined only within China's 
borders. I have spoken to constituents who have reported 
intimidation and harassment by agents of the Chinese government 
here on American soil.
    Mr. Sherman, who serves on this committee, has been a 
leader in terms of drawing attention to this and attempting to 
expand export controls on U.S. businesses that provide 
technology, training, or other support and equipment to the 
Chinese government security apparatus, and I have been working 
with a bipartisan group of Representatives and Senators to 
attempt to get the Administration to impose Global Magnitsky 
sanctions on Communist party officials.
    My question to Mr. Zweig, Ms. Rosenberg, Mr. Mortlock is, 
are Magnitsky Act sanctions something that could be an 
effective tool in pressuring Beijing to change its behavior in 
this regard?
    Mr. Zweig. Thank you, ma'am. I think in the interim they 
could be. I would expand the aperture to the specific companies 
providing surveillance equipment, and I think it would largely 
be captured, if not under the statute, then under the Executive 
Order.
    Ms. Wexton. Okay.
    Ms. Rosenberg. I would agree and just add that the United 
States, beyond that Global Magnitksy actions, also should 
concern itself with rules, requirements, and regulations that 
prohibit U.S. entities from in any way participating in the 
provision of technology and equipment or enabling of that 
surveillance and that treatment to occur.
    Ms. Wexton. Okay. Thank you.
    Mr. Mortlock. I also agree. I think Global Magnitsky has 
been a real highlight of Congress imposing sanctions and giving 
the Administration new authority in the human rights area and 
the Administration following through on that.
    Another list of sanctions was due in December by the 
Administration. We are waiting on it now.
    I think, given the horrific reports on the treatment of the 
Uighurs and the scale of those abuses, this certainly seems 
like a strong candidate for Global Magnitsky sanctions, which 
would send, I think, a very strong message to China and the 
companies supporting those efforts.
    Ms. Wexton. Thank you. One concern that has been raised is 
that China has warned that it will retaliate in proportion to 
any--against any U.S. sanctions.
    Is the threat of retaliatory sanctions, is that a credible 
threat and something that policymakers should be concerned 
about?
    Ms. Rosenberg. It is certainly credible that China may 
respond, including in ways that have economic and political 
detriment to the United States. They have been engaged for 
years now in various forms of economic coercion that have often 
hit countries in its near abroad, not as often U.S. entities. 
But there is no reason that China's growing economy and growing 
points of leverage could not be used to advance this, which is 
among the core of China's national interest related to 
sovereignty and their concern if they were to be targeted by 
the United States, that they should not be, that this would be 
an inappropriate extraterritorial exercise of U.S. power. So I 
think it is credible that they would respond, not that that 
should deter the United States from doing the right thing, but 
eyes wide open would be a good approach for the U.S. in 
pursuing such implementation of such policies, Magnitsky or 
otherwise.
    Ms. Wexton. Thank you. Thank you very much.
    I will yield back my time.
    Chairman Cleaver. Thank you.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentleman from Ohio, Mr. Stivers, for such 
time as he may consume.
    Mr. Stivers. Thank you, Mr. Chairman.
    Before I ask questions, I want to make it clear that I 
support the objectives of this discussion draft. I think that 
it is important that Russia understand that, if it interferes 
with our elections, they will suffer serious consequences. 
However, I do have some concerns about the specific proposals 
in the discussion draft.
    The first question I have for the panel is, how exposed are 
U.S. banks and asset managers to Russian sovereign debt? Does 
anybody want to handle that?
    Mr. Singh. The estimates are that foreign investors own 
about 20 or 30 percent of Russia's ruble denominated debt. That 
is the bulk of what Russia issues. I think we can assume that 
most of that foreign-owned debt is held by U.S. investors.
    Mr. Stivers. Do you believe that if we enact this bill, 
that one of the outcomes could be a default on U.S. creditors, 
and what would that do to the debt markets in the United 
States?
    Mr. Singh. No, I don't think that is a serious concern. If 
we look at Russia's holdings of U.S. Treasuries, for example, 
they sold about 90 percent of those holdings last year. Even 
before they sold those holdings, Russia was only the 15th 
largest holder of Treasuries.
    We have had much bigger owners of U.S. Treasuries sell in 
much larger size, China in particular, in 2015 and 2016, and 
the effects on the U.S. Treasury market were negligible.
    Mr. Stivers. Okay. I want to talk a little bit about the 
U.S. fossil fuel production and energy security.
    Under the draft, Russian interference in elections would 
trigger tough new sanctions, including restrictions on any new 
investment in Russia's energy sector. If you want to punish 
Russia, I think that is a really good place to inflict pain for 
Russia. Russia is ranked second in natural gas production, 
third in oil. The United States is now the top producer in both 
categories. And Congress has witnessed a lot of debate about 
energy policy, some pushing for divestment of all fossil fuel 
sources.
    I have a simple question. Has the shale revolution in the 
United States energy production made it easier or harder for 
the United States to impose energy-related sanctions on 
countries like Russia?
    Ms. Rosenberg. Congressman, I would like to speak to this 
question.
    I think there is a perception that because the United 
States is a bigger producer and indeed now exporter and that 
this contributes more meaningfully to the U.S. balance of trade 
and our economy, that we are in a position to impose energy 
sanctions, cut off supply elsewhere in the world, because the 
United States is more secure or it is adding more supply and 
can, therefore, substitute for other in the market.
    Though there is an attractiveness in thinking that way, 
that obfuscates the actual vulnerability we nevertheless feel, 
which is tremendous, for every consumer of energy products, 
which includes everyone who drives a car and who uses diesel 
for their vehicle, or gasoline, otherwise, that if there is 
volatility in the market that we impose, we ourselves will be 
faced with that as well.
    And so I think we should carefully resist the notion that 
just because we are in a stronger economic position as a bigger 
producer, we therefore insulate ourselves from market 
volatility. We do not.
    Mr. Stivers. Okay. Thank you.
    Yes, Mr. Carpenter?
    Mr. Carpenter. If I could add onto that, though. I do think 
that targeting new investments in the energy sector whether it 
is in Arctic, deep water, unconventional, or in conventional, 
will impose pain without having a price shock in the near term. 
And so that is probably a more advantageous way to go than 
trying to limit supply in the near term.
    Mr. Stivers. Thank you.
    Mr. Carpenter, in your testimony, under the subtitle, 
``Meaning what we say and do,'' you talked about the lack of a 
coherent message on Russia and talked about this Administration 
and the G8. And every testimony I think stated that sanctions 
are stronger when they are imposed by a coalition of allies.
    Do you believe our partners in Europe have been clear about 
their views on Russian aggression?
    Mr. Carpenter. I think our partners in Europe have--it is 
remarkable that they have stood with us for as long as they 
have. I think that is a very tenuous coalition right now. You 
have a number of countries, including principally Hungary, 
Italy, and Austria, that are very weak on Russia, that have 
embraced Mr. Putin, and have complained very vocally about the 
impact of sanctions on their economies, whether that is true or 
not. And so we are right now almost at the end of the rope, I 
think, as far as European cohesion goes.
    Mr. Perlmutter [presiding]. Dr. Carpenter, I am going to 
cut you off, because I want the last two gentlemen to be able 
to get their--
    Mr. Stivers. Thank you. I yield back.
    Mr. Perlmutter. --questions in.
    The gentleman yields back.
    Mr. Gottheimer from New Jersey is recognized for 5 minutes.
    Mr. Gottheimer. Thank you, Mr. Chairman.
    Terrorist groups like Hamas and Palestinian Islamic Jihad 
in Gaza are well known for firing rockets and digging terror 
tunnels into Israel and using Gazans, including women and 
children, as human shields.
    In March, Congressman Brian Mast of Florida and I 
introduced the Palestinian International Terrorism Support 
Prevention Act, along with House Foreign Affairs Committee 
Chairman Engel and Ranking Member McCaul, to impose sanctions 
on foreign persons and governments that provide support to 
these terrorist groups.
    Mr. Zweig, if I could ask you a question, sir? First, I 
assume you would agree that Hamas and PIJ are foreign terrorist 
organizations as designated by the United States of America?
    Mr. Zweig. Yes, sir.
    Mr. Gottheimer. Also, I assume you would agree that--or if 
I could ask your opinion on this--if you would agree that the 
United States and our allies need a comprehensive strategy to 
strengthen sanctions against those who knowingly and materially 
assist terrorist groups like Hamas and PIJ so we can further 
isolate, weaken, and cut them off at the source? If you could 
comment on that, sir?
    Mr. Zweig. Yes, sir. I absolutely agree. And I think your 
legislation is a very important marker in achieving those 
objectives.
    Mr. Gottheimer. Thank you.
    If I can move on to Iran sanctions for a minute.
    In 2017, Congress passed the Countering America's 
Adversaries Through Sanctions Act, or CAATSA, to increase 
sanctions on Russia, Iran, and North Korea.
    Section 241 of CAATSA requires Treasury, in consultation 
with the Director of National Intelligence and the Secretary of 
State, to submit a report to Congress on Russian oligarchs and 
other entities.
    Ms. Rosenberg, the Iranian regime has also enriched corrupt 
regime-connected officials. Wouldn't it be beneficial, in your 
opinion, for Congress to require a similar public report on 
Iranian oligarchs to shed light on that that regime's 
corruption, distortion, and mismanagement of Iran's economy?
    Ms. Rosenberg. Congressman, I share your concern.
    Mr. Gottheimer. Thank you, Ms. Rosenberg.
    Ms. Rosenberg. And I would encourage the Administration to 
implement sanctions that have the effect of highlighting and 
exposing those Iranian officials that have engaged in terrorist 
activity and support of missile proliferation, abuse of human 
rights and otherwise. That is a facet of the current sanctions 
implementation across a variety of programs. There can always 
be more there, given the dangerous nature of the regime and the 
activities in which they have been involved.
    Mr. Gottheimer. Thank you, Ms. Rosenberg. I appreciate 
that.
    Mr. Zweig, if I could ask you a follow-up question on Iran. 
Iran is the world's leading state sponsor of terror, providing 
hundreds of millions of dollars annually to terrorist groups 
like Hezbollah.
    How effective have reimposed sanctions on Iran been in 
terms of limiting the flow of Iranian resources to Hezbollah 
and other proxies, sir?
    Mr. Zweig. Just anecdotally, Hezbollah has issued one of 
its first public appeals for resources in recent memory. And I 
think, through that, you can see that there is a real squeeze 
on them.
    Mr. Gottheimer. That seems to be a growing consensus, 
right? If I can--
    Ms. Rosenberg. Congressman, may I speak to that point?
    Mr. Gottheimer. Please, Ms. Rosenberg. Thank you.
    Ms. Rosenberg. Yes. It may be true that Iran--and I expect 
that Iran will be squeezed by the reimposition of sanctions, 
and that we will see that show up over coming months.
    Nevertheless, it may be the case that this regime spends 
every last dinar on intensity conflict in its support for 
terror regimes--terror groups throughout the region. And one 
thing that we saw during the period of most intensive sanctions 
in 2012 through 2015 is that there was funding nevertheless 
during that intensive period of sanctions for these groups who 
continued to threaten and destabilize the region.
    Mr. Gottheimer. But if they are being squeezed and continue 
to be, and that will give them fewer resources to fund 
Hezbollah and Hamas and others, right, in the region?
    Ms. Rosenberg. That is surely the case. At least I hope 
that that is the--that is a theory of the case, and it will be 
true to some extent. But given that this is a top priority of 
the Iranian regime, there must be complementary efforts to 
nevertheless try and contain and undermine the efforts of these 
terrorist groups in the region which will survive on a 
shoestring in that intensity conflict is cheap.
    Mr. Gottheimer. Mr. Zweig, do you want to say something?
    Mr. Zweig. I just want to mention that it is a dual-track 
effort. You hit the Iranian regime. But in addition, the 
Administration and the Congress, similar to legislation that 
you mentioned earlier, has sought to go after the proxies 
themselves through successive legislative efforts related to 
Hezbollah, also Syria, in the Congress but also the actions 
that the Administration has taken recently to effectively go 
after Syria's access to oil.
    Mr. Gottheimer. Thank you very much. Thank you all very 
much for being here today.
    I yield back. Thank you.
    Mr. Perlmutter. The gentleman from New Jersey yields back.
    The gentleman from Kentucky, Mr. Barr, is recognized for 5 
minutes.
    Mr. Barr. Thank you, Mr. Chairman.
    As the former chairman of this subcommittee, I appreciate 
you allowing me to jump into the fray here. And let me stay on 
the same topic that Mr. Gottheimer was exploring related to 
Iran.
    Specifically, I want to talk about NGOs and the BDS 
movement. As all of you know, any U.S. banked organization that 
has ties with a designated terrorist organization is subject to 
U.S. sanctions. I think that was part of an Executive Order 
post- 9/11.
    What concerns me is the potential for these nongovernmental 
organizations who receive access to U.S. funding or access to 
the U.S. banking system to use their humanitarian or stated 
educational mission as a cover to actually facilitate terrorist 
activity.
    Mr. Zweig, are you aware of any NGOs, particularly those 
that are participating in the BDS movement, that are 
circumventing U.S. sanctions and that have ties with terrorist 
organizations like PIJ, Hamas, or Hezbollah?
    Mr. Zweig. I don't have the information in front of me, but 
I can get back to you on it.
    Mr. Barr. I know that FDD has done a lot of work on this. 
And I would appreciate you informing Congress, with all of your 
extensive expertise, if your organization has identified NGOs--
particularly NGOs operating in either the United States or 
Western European countries--that parade as a humanitarian 
organization with an educational mission but have actual ties, 
or maybe even financial ties, with Hamas, Hezbollah, PIJ, or 
other similar type organizations.
    I think that if we do discover that, U.S. sanctions are 
appropriate to affirmatively go after these NGOs as opposed to 
just passively resist BDS. And I would invite your reaction to 
that.
    Mr. Zweig. Absolutely, sir. And I will be happy to get--as 
I said, I don't have the information in front of me right now, 
but I am happy to get back to you immediately after the 
hearing.
    The one thing I would note is, for those organizations 
operating in the United States, they potentially run afoul of 
the material support threshold within the foreign terrorist 
organization statutes, which is title 18 criminal liability, 
which is much stronger than that of the International Emergency 
Economic Powers Act civil liability. So that is also another 
thing to consider when looking at the aperture--
    Mr. Barr. Good thought. Good feedback.
    Last Congress, I introduced the Otto Warmbier North Korea 
Nuclear Sanctions Act, which passed the House 415 to 2. I will 
be reintroducing this bill in the near future due to what I 
believe is the need for continued and even heightened sanctions 
on North Korea given the recent missile tests.
    We must continue to increase pressure on North Korea and 
ensure we have used all of our available tools to ensure that 
North Korea is negotiating in good faith, which they are not, 
and that Secretary Pompeo and the rest of our negotiators--we 
want to make sure that they have the leverage that they need.
    Mr. Zweig, in your testimony, you talked about how 
sanctions can be undermined by an unwillingness on the part of 
our allies and partners to escalate pressure.
    Obviously, China is not an ally. They are certainly not a 
continuously willing partner in applying sanctions to North 
Korea. Can you identify the ways in which they are helping 
North Korea evade sanctions?
    Mr. Zweig. I think we have seen in the past, both in the 
financial sector and in the shipping sector, efforts on the 
part of Chinese entities to do so. And it is a matter of fully 
deploying, implementing, enforcing existing sanctions, 
including shipping sanctions contained in CAATSA that, to my 
knowledge, hitherto have not been fully implemented or 
enforced.
    Mr. Barr. Any other tools that we have in our arsenal that 
are not being used to put maximum pressure on North Korea, 
specifically secondary sanctions related to China?
    Mr. Zweig. Yes, absolutely. And then you have secondary 
sanctions related to China, which is again something that comes 
up fairly frequently. But you also have, for example, entity 
lists, Department of Commerce-related actions with respect to 
companies providing support, direct or indirect, to North 
Korea. You also have Department of Homeland Security, both 
Homeland Security Investigations and CBP action, as it pertains 
to a rebuttable presumption on goods with any part 
manufacturer--with any growth or manufacturer emanating from 
North Korea, preventing it from coming to the United States. 
And that has proven to be a fairly substantial sanction.
    Mr. Barr. I don't have much time left. But in my remaining 
time, with respect to the underlying draft on Russian 
sanctions, as I visited Eastern Europe and NATO countries, what 
I am disturbed by is this Nord Stream 2 project. I applaud the 
provisions in the draft that relate to the energy sector of 
Russia. I think they are probably overbroad. But I would want 
to know from anyone why we don't specifically target Nord 
Stream 2 as a matter of U.S. sanctions policy.
    Mr. Singh?
    Mr. Perlmutter. The gentleman's time has expired. We have 1 
minute left to vote on the Floor, so I am going to bring this 
to a close without cutting off Mr. Barr--
    Mr. Barr. Thank you. I yield back.
    Mr. Perlmutter. He is yielding back.
    Mr. Barr. I yield back.
    Mr. Perlmutter. I would like to thank our witnesses for 
their testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    I ask our witnesses to please respond as promptly as you 
are able.
    Thank you very much. We are going to bolt out of here. And 
I appreciate the testimony of this panel.
    This hearing is adjourned.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]

                            A P P E N D I X



                              May 15, 2019
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
